                   DEPARTMENt OF HEALTH .~'lD HUMAN SERVJ~!ES


               OFFICE OF INSPECTOR GENERAL
                                   WASHINGTON, DC 20201



                                     DEC 12 2012
TO:           Marilyn Tavenner
              Acting Administrator
              Centers for Medicare & Medicaid Services

                            /S/
FROM:         Stuart Wright
              Deputy Inspector General
                for Evaluation and Inspections


SUBJECT:      Memorandum Report: Comparison ofFirst-Quarter 2012 Average Sales
              Prices and Average Manufacturer Prices: Impact on .Medicare
              Reimbursementfor Third Quarter 2012, OEI-03-12-00730


This review was conducted in accordance with the statutory mandate for the Office of
Inspector General (OIG) to identify Medicare Part B prescription drugs with average
sales prices (ASP) that exceed average manufacturer prices (AMP) by at least 5 percent.
This review estimated the financial impact oflowering reimbursement amounts for drugs
that met the 5-percent threshold to I 03 percent of the AMPs, and also examined the
potential effect of a November 2012 final rule that, among other things, specifies the
circumstances under which the Centers for Medicare & Medicaid Services (CMS) wili
make AMP-based price substituti.ons.

SUMMARY

When Congress estahlished ASP as the primary basis for Medicare P~ B drug
reimbursement, it also mandated that OIG compare ASPs with AMPs and directed CMS
to lower reimbursement for drugs with ASPs that exceed AMPs by a threshold of
5 percent. Since the impiementation of the ASP payment methodology in 2005, OIG has
fulfilled its responsibility by issuing 26 reports comparing ASPs and AMPs. However,
CMS has yet to lower reimbursement in response to OIG's findings and                ·
recommendations. This latest comparison examines drugs that exceeded the 5-percent
threshold based on either complete or partial AMP data in the first quarter of2012. Of
the 385 drug codes with complete AMP data, 22 exceeded the 5-percent threshold. If
reimbursement amounts for all 22 codes had been based on 103 percent of the AMPs in
the third quarter of2012, Medicare would have saved an estimated $739,000 in that .
quarter alone. Under'CMS's price substitution policy, reimbursement amounts for 15 of
the 22 drugs would have been reduced, saving an estimated $606,000 in the quarter. Of
the 64 drug codes with partial AMP data, 6 exceeded the 5·percent threshold. CMS has



Comparison of First-Quarter 2011 ASPs and AMPs (OEI-03-12-00730)
Page 2 – Marilyn Tavenner


expressed concern that partial AMP data may not adequately reflect market trends and
therefore will not apply its price substitution policy to drugs with partial AMP data.
However, we found that pricing comparisons for two of the six codes with partial AMP
data seemed to accurately capture market trends; therefore, price reductions may be
appropriate in these cases. We could not perform pricing comparisons for an additional
52 drug codes because none of the associated drug products had corresponding AMP
data. Manufacturers for 9 percent of the associated drug products had Medicaid drug
rebate agreements and were therefore generally required to submit AMPs.

BACKGROUND

The Social Security Act (the Act) mandates that OIG compare ASPs to AMPs. 1 If OIG
finds that the ASP for a drug exceeds the AMP by a certain percentage (currently
5 percent), the Act states that the Secretary of Health and Human Services (the Secretary)
may disregard the ASP for the drug when setting reimbursement amounts. 2, 3 The Act
further states that “… the Inspector General shall inform the Secretary (at such times as
the Secretary may specify to carry out this subparagraph) and the Secretary shall,
effective as of the next quarter, substitute for the amount of payment … the lesser of
(i) the widely available market price … (if any); or (ii) 103 percent of the average
manufacturer price….”4

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered
drugs include injectable drugs administered by a physician; certain self-administered
drugs, such as oral anticancer drugs and immunosuppressive drugs; drugs used in
conjunction with durable medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
CMS contracts with private companies to process and pay Medicare Part B claims,
including those for prescription drugs. To obtain reimbursement for covered outpatient
prescription drugs, health care providers submit claims to Medicare contractors using
procedure codes. CMS established the Healthcare Common Procedure Coding System
(HCPCS) to provide a standardized coding system for describing the specific items and
services provided in the delivery of health care. In the case of prescription drugs, each
HCPCS code defines the drug name and the amount of the drug represented by the
HCPCS code but does not specify manufacturer or package size information.



1
  Section 1847A(d)(2)(B) of the Act.
2
  Section 1847A(d)(3)(A) of the Act.
3
  Section 1847A(d)(3)(B)(ii) of the Act provides the Secretary with authority to adjust the applicable
threshold percentage in 2006 and subsequent years; however, the threshold percentage has been maintained
at 5 percent.
4
  Section 1847A(d)(3)(C) of the Act.


Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 3 – Marilyn Tavenner


Medicare and its beneficiaries spent over $12 billion for Part B drugs in 2011. 5 Although
Medicare paid for more than 500 outpatient prescription drug HCPCS codes that year,
most of the spending for Part B drugs was concentrated on a relatively small subset of
those codes. In 2011, 62 HCPCS codes accounted for 90 percent of the expenditures for
Part B drugs, with only 13 of these codes representing the majority of total Part B drug
expenditures.

Reimbursement Methodology for Part B Drugs and Biologicals
Medicare Part B pays for most covered drugs using a reimbursement methodology based
on ASPs. 6 As defined by law, an ASP is a manufacturer’s sales of a drug to all
purchasers in the United States in a calendar quarter divided by the total number of units
of the drug sold by the manufacturer in that same quarter. 7 The ASP is net of any price
concessions, such as volume discounts, prompt pay discounts, cash discounts, free goods
contingent on purchase requirements, chargebacks, and rebates other than those obtained
through the Medicaid drug rebate program. 8 Sales that are nominal in amount are
exempted from the ASP calculation, as are sales excluded from the determination of “best
price” in Medicaid’s drug rebate program. 9, 10

Manufacturers that participate in the Medicaid drug rebate program must provide CMS
with the ASP and volume of sales for each of their national drug codes (NDC) on a
quarterly basis, with submissions due 30 days after the close of each quarter. 11 An NDC
is an 11-digit identifier that represents a specific manufacturer, product, and package size.

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes
rather than NDCs and more than one NDC may meet the definition of a particular
HCPCS code, CMS has developed a file that “crosswalks” manufacturers’ NDCs to
HCPCS codes. CMS uses information in this crosswalk file to calculate volume-
weighted ASPs for covered HCPCS codes.

Calculation of Volume-Weighted ASPs
Third-quarter 2012 Medicare payments for most covered drug codes were based on
first-quarter 2012 ASP submissions from manufacturers, which were volume weighted
5
  Medicare expenditures for Part B drugs in 2011 were calculated using CMS’s Part B Analytics and
Reports (PBAR). The PBAR data for 2011 were 98-percent complete when the data were downloaded in
May 2012.
6
  Several Part B drugs, including certain vaccines and blood products, are not paid for under the ASP
methodology.
7
  Section 1847A(c) of the Act, as added by the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003, P.L. 108-173.
8
  Section 1847A(c)(3) of the Act.
9
  Section 1847A(c)(2) of the Act.
10
   Pursuant to § 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the manufacturer
during the rebate period to any wholesaler, retailer, provider, health maintenance organization, nonprofit
entity, or governmental entity within the United States, with certain exceptions.
11
   Section 1927(b)(3) of the Act.


Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 4 – Marilyn Tavenner


using an equation that involves the following variables: the ASP for the 11-digit NDC as
reported by the manufacturer, the volume of sales for the NDC as reported by the
manufacturer, and the number of billing units in the NDC as determined by CMS. 12 The
amount of the drug contained in an NDC may differ from the amount of the drug
specified by the HCPCS code that providers use to bill Medicare. Therefore, the number
of billing units in an NDC describes the number of HCPCS code units that are in that
NDC. For instance, an NDC may contain 10 milliliters of Drug A, but the corresponding
HCPCS code may be defined as only 5 milliliters of Drug A. In this case, there are two
billing units in the NDC. CMS calculates the number of billing units in each NDC when
developing its crosswalk files.

Under the ASP pricing methodology, the Medicare allowance for most Part B drugs is
equal to 106 percent of the volume-weighted ASP for the HCPCS code. 13 Medicare
beneficiaries are generally responsible for 20 percent of this amount in the form of
coinsurance.

The Medicaid Drug Rebate Program and AMPs
In general, for Federal payment to be available for covered outpatient drugs provided
under Medicaid, the Act mandates that drug manufacturers enter into rebate agreements
with the Secretary and pay quarterly rebates to State Medicaid agencies. 14 Under these
rebate agreements and pursuant to the Act, manufacturers must provide CMS with the
AMPs for each of their NDCs. 15 As further explained in regulation, manufacturers are
required to submit AMPs within 30 days after the end of each quarter. 16

The AMP is generally calculated as a weighted average of prices for all of a
manufacturer’s package sizes of a drug and is reported for the lowest identifiable quantity
of the drug (e.g., 1 milliliter, one tablet, one capsule). By law, AMP is defined as the
average price paid to the manufacturer for the drug in the United States by
(1) wholesalers for drugs distributed to retail community pharmacies and (2) retail
community pharmacies that purchase drugs directly from the manufacturer. 17, 18


12
   The equation that CMS currently uses to calculate volume-weighted ASPs is described in § 1847A(b)(6)
of the Act. It is also provided in Appendix A.
13
   Section 1847A(b)(1) of the Act.
14
   Sections 1927(a)(1) and (b)(1) of the Act.
15
   Section 1927(b)(3) of the Act.
16
   42 CFR § 447.510.
17
   Section 1927(k)(1) of the Act, as amended by § 2503 of the Patient Protection and Affordable Care Act,
P.L. 111-148.
18
   Pursuant to § 1927(k)(10) of the Act, “retail community pharmacy” means an independent, chain,
supermarket, or mass merchandiser pharmacy that is licensed as a pharmacy by the State and that dispenses
medications to the general public at retail prices. Such term does not include a pharmacy that dispenses
prescription medications to patients primarily through the mail; nursing home, long-term-care, or hospital
pharmacies; clinics; charitable or not-for-profit pharmacies; government pharmacies; or pharmacy benefit
managers.


Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 5 – Marilyn Tavenner


Penalties for Failure To Report Timely Drug Pricing Data
Pursuant to the Act, manufacturers that fail to provide ASP and AMP data on a timely
basis may be subject to civil money penalties and/or termination from the drug rebate
program. 19, 20 Accordingly, CMS has terminated rebate agreements with a number of
manufacturers for failure to report AMPs and, for the purposes of evaluating potential
civil money penalties, has referred to OIG manufacturers that failed to submit timely
ASPs and AMPs. In accordance with an enforcement initiative announced in September
2010, OIG has imposed civil monetary penalties on certain manufacturers that failed to
report timely ASPs and/or AMPs. 21

OIG’s Monitoring of ASPs and AMPs
To comply with its statutory mandate, OIG has issued 22 quarterly pricing comparisons
since the ASP reimbursement methodology for Part B drugs was implemented in January
2005. In addition, OIG has completed four annual overviews of ASPs and AMPs, which
examined data across all four quarters of 2007, 2008, 2009, and 2010, respectively.

OIG has consistently recommended that CMS develop a price substitution policy and
lower the reimbursement amounts for drugs that exceed the 5-percent threshold as
directed by the Act. Although CMS has yet to make any changes to Part B drug
reimbursement as a result of OIG’s studies, the agency published a final rule in
November 2012 that, among other things, specifies the circumstances under which
AMP-based price substitutions will occur beginning in 2013. 22, 23

CMS’s Price Substitution Policy
According to its November 2012 final rule, CMS will substitute 103 percent of the AMP
for the ASP-based reimbursement amount when OIG identifies a HCPCS code that
exceeds the 5-percent threshold in two consecutive quarters or three of four quarters. 24
Because CMS believes that comparisons based on partial AMP data may not adequately
reflect market trends, 25 the agency will lower reimbursement amounts only when ASP

19
   Sections 1927(b)(3)(C)(i) and (4)(B)(i) of the Act.
20
   The Secretary delegated to OIG the responsibility to impose civil money penalties for violations of
§ 1927(b)(3)(C) of the Act in 59 Fed. Reg. 52967 (Oct. 20, 1994).
21
   OIG, Special Advisory Bulletin: Average Manufacturer Price and Average Sales Price Reporting
Requirements, September 2010. Available online at http://www.oig.hhs.gov.
22
   77 Fed. Reg. 68892, 69368 (Nov. 16, 2012).
23
   This is the third time that CMS has pursued rulemaking on AMP-based price substitutions. In July 2010,
CMS published a proposed rule that specified the circumstances under which AMP-based price
substitutions would occur, effective January 2011; however, the agency opted not to finalize this proposed
rule based, in part, on impending changes to the definition of AMP (75 Fed. Reg. 73170, 73471
(Nov. 29, 2010)). In November 2011, CMS published a final rule that again specified circumstances under
which price substitutions would occur (76 Fed. Reg. 73026, 73473 (Nov. 28, 2011)). Although that final
rule took effect in January 2012, CMS did not implement that policy in light of access concerns related to
drug shortages.
24
   77 Fed. Reg. 68892, 69368 (Nov. 16, 2012).
25
   76 Fed. Reg. 73026, 73289 (Nov. 28, 2011).


Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 6 – Marilyn Tavenner


and AMP comparisons are based on the same set of NDCs (i.e., based on complete AMP
data). 26 Price substitutions will take effect in the quarter after OIG shares the results of its
most recent pricing comparison and remain in effect for one quarter. 27, 28 Drugs identified
by the Food and Drug Administration (FDA) as being in short supply will not be eligible
for price substitution. 29

METHODOLOGY

We obtained a file from CMS containing NDC-level ASP data from the first quarter of
2012, which were used to establish Part B drug reimbursement for the third quarter of
2012. This file also includes information that crosswalks NDCs to their corresponding
HCPCS codes. Both the ASP data and the crosswalk data were current as of
June 21, 2012. We also obtained AMP data from CMS for the first quarter of 2012,
which were current as of May 7, 2012.

Analyzing ASP Data From the First Quarter of 2012
As mentioned previously, Medicare does not base reimbursement for covered drugs on
NDCs; instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted
by manufacturers for each NDC to calculate a volume-weighted ASP for each covered
HCPCS code. When calculating these volume-weighted ASPs, CMS includes only
NDCs with ASP submissions that are deemed valid. As of June 2012, CMS had
established prices for 514 HCPCS codes based on the ASP reimbursement methodology
mandated by the Act. 30 Reimbursement amounts for the 514 HCPCS codes were based
on ASP data for 3,197 NDCs.

Analyzing AMP Data From the First Quarter of 2012
To ensure that the broadest range of drug codes is subject to OIG’s pricing comparisons,
we divided HCPCS codes into the following three groups:

        (1) HCPCS codes with complete AMP data—i.e., HCPCS codes with AMP data
            for every NDC that CMS used in its calculation of volume-weighted ASPs;


26
   77 Fed. Reg. 68892, 69368 (Nov. 16, 2012).
27
   See, e.g., 76 Fed. Reg. 73026, 73473 (Nov. 28, 2011). After that one quarter, the reimbursement amount
will be either 106 percent of the volume-weighted ASP for the current quarter or, if the HCPCS code
continues to meet CMS’s price substitution criteria, 103 percent of the volume-weighted AMP for the
current quarter.
28
   To prevent CMS’s policy from inadvertently raising the Medicare reimbursement amount, a price
substitution will not occur when the substituted amount is greater than the ASP-based payment amount
calculated for the quarter in which the price substitution would take effect (77 Fed. Reg. 68892, 69368
(Nov. 16, 2012)). For example, if the AMP-based substitution amount were $5 and the ASP-based
reimbursement amount were $4 for the quarter in which the substitution would take place, CMS would not
make the price substitution.
29
   77 Fed. Reg. 68892, 69368 (Nov. 16, 2012).
30
   Section 1847A(b)(6) of the Act.


Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 7 – Marilyn Tavenner


           (2) HCPCS codes with partial AMP data—i.e., HCPCS codes with AMP data for
               only some of the NDCs that CMS used in its calculation of volume-weighted
               ASPs; and

           (3) HCPCS codes with no AMP data—i.e., HCPCS codes with no AMP data for
               any of the NDCs that CMS used in its calculation of volume-weighted ASPs.

As previously noted, the AMP for each NDC is reported for the lowest identifiable
quantity of the drug contained in that NDC (e.g., 1 milliliter, one tablet, one capsule).
In contrast, the ASP is reported for the entire amount of the drug contained in the NDC
(e.g., 50 milliliters, 100 tablets). To ensure that the AMP would be comparable to the
ASP, it was necessary to convert the AMP for each NDC so that it represented the total
amount of the drug contained in that NDC.

To calculate “converted AMPs” for NDCs in the first and second groups, we multiplied
the AMP by the total amount of the drug contained in each NDC, as identified by sources
such as the CMS crosswalk file, manufacturer Web sites, drug labels, Thomson Reuters’
Red Book, and FDA’s NDC directory. 31 For certain NDCs, we were unable to identify
the amount of the drug reflected by the ASP or AMP and therefore could not calculate a
converted AMP. Because of these unsuccessful AMP conversions, 13 HCPCS codes
were removed from our analysis.

Using NDCs with successful AMP conversions, we then calculated a volume-weighted
AMP for each of the corresponding HCPCS codes, consistent with CMS’s methodology
for calculating volume-weighted ASPs. When calculating the volume-weighted AMP for
a HCPCS code with partial AMP data, we excluded any NDCs without AMPs; however,
we did not exclude those NDCs from the corresponding volume-weighted ASP. This
means that the volume-weighted AMP for a HCPCS code with partial AMP data is based
on fewer NDCs than the volume-weighted ASP for that same code. Appendix B provides
a more detailed description of the methods we used to both convert AMPs and calculate
volume-weighted AMPs. Table 1 provides the final number of HCPCS codes and NDCs
included in our analysis after we removed NDCs with either no AMP data or
unsuccessful AMP conversions.

Table 1: Number of Drug Codes and NDCs Included in OIG’s Pricing Comparison
                                                                            Num ber of       Num ber of
 Availability of AMP Data for HCPCS Codes
                                                                         HCPCS Codes             NDCs

 Complete AMP Data                                                                 385               1,713

 Partial AMP Data                                                                   64                728

 No AMP Data                                                                        52                208
Source: OIG analy sis of f irst-quarter 2012 ASP and AMP data, 2012.


31
     We did not calculate converted AMPs for NDCs in the third group because they had no AMP data.


Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 8 – Marilyn Tavenner


Comparing First-Quarter 2012 Volume-Weighted ASPs and AMPs for HCPCS
Codes With Complete AMP Data
For each of the 385 HCPCS codes with complete AMP data, we compared the volume-
weighted ASP and AMP and determined whether the ASP for the code exceeded the
AMP by at least 5 percent. For HCPCS codes that exceeded the 5-percent threshold, we
reviewed the associated NDCs to verify the accuracy of the billing unit information.
According to our review, none of the HCPCS codes that exceeded the threshold based on
complete AMP data was associated with questionable billing units.

For each of the HCPCS codes that exceeded the 5-percent threshold, we estimated the
monetary impact of lowering reimbursement to 103 percent of the AMP. 32 First, we
calculated 103 percent of the volume-weighted AMP and subtracted this amount from the
third-quarter 2012 reimbursement amount for the HCPCS code. To estimate the financial
effect for the third quarter of 2012, we then multiplied the difference by one-fourth of the
number of services that were allowed by Medicare for each HCPCS code in 2011, as
reported in the PBAR. 33, 34

To determine which HCPCS codes would have been subject to CMS’s price substitution
policy, we identified codes with complete AMP data that met the 5-percent threshold in
two consecutive or three of four quarters and were not identified by FDA as being in
short supply. We then totaled the estimated third-quarter 2012 savings for that subset of
codes.

Comparing First-Quarter 2012 Volume-Weighted ASPs and AMPs for HCPCS
Codes With Partial AMP Data
For each of the 64 HCPCS codes with partial AMP data, we compared the volume-
weighted ASP and AMP and determined whether the ASP for the code exceeded the
AMP by at least 5 percent. For HCPCS codes that exceeded the 5-percent threshold, we
reviewed the associated NDCs to verify the accuracy of the billing units. According to
our review, one of the HCPCS codes that exceeded the threshold based on partial AMP
data was associated with questionable billing units. Because volume-weighted ASPs and
AMPs are calculated using this billing unit information, we could not be certain that the
results for this code was correct. Therefore, we excluded this HCPCS code from our
count of codes with partial AMP data that exceeded the 5-percent threshold.

32
   Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for drugs that
exceed the 5-percent threshold with the lesser of the widely available market price for the drug (if any) or
103 percent of the AMP. For the purposes of this study, we used 103 percent of the AMP to estimate the
impact of lowering reimbursement amounts. If widely available market prices had been available for these
drugs and lower than 103 percent of the AMP, the savings estimate presented in this report would have
been greater.
33
   The PBAR data for 2011 were 98-percent complete when the data were downloaded in May 2012.
34
   This estimate assumes that the number of services allowed by Medicare in 2011 remained consistent
from one quarter to the next and that there were no significant changes in utilization between 2011 and
2012.


Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 9 – Marilyn Tavenner


For each of the remaining HCPCS codes that exceeded the 5-percent threshold based on
partial AMP data, we determined whether missing AMPs unduly influenced the results of
our pricing comparison. As mentioned previously, the volume-weighted AMP for a
HCPCS code with partial AMP data is based on fewer NDCs than the volume-weighted
ASP for that same code. Therefore, there may be a disparity between the volume-
weighted ASP and AMP that would not exist if AMP data were available for the full set
of NDCs. In other words, the volume-weighted ASP for the HCPCS code could exceed
the volume-weighted AMP by at least 5 percent only because AMPs for certain NDCs
were not represented.

CMS has expressed concern that partial AMP data may not adequately reflect market
trends. 35 Therefore, to identify HCPCS codes with partial AMP data that exceeded the
5-percent threshold only because AMP data were missing, we reanalyzed pricing data
after accounting for the missing values. Specifically, we replaced each missing AMP
with its corresponding ASP and recalculated the volume-weighted AMPs using those
imputed prices. 36 We then compared those new volume-weighted AMPs to the volume-
weighted ASPs originally calculated by CMS.

If a HCPCS code no longer exceeded the 5-percent threshold, we concluded that the
missing AMPs likely caused the HCPCS code to initially exceed the threshold, as
opposed to an actual disparity between ASPs and AMPs in the marketplace.

If a HCPCS code continued to exceed the 5-percent threshold, we concluded that missing
AMPs had little impact on the results of our pricing comparison. These HCPCS codes
likely exceeded the threshold as a result of actual pricing differences between ASPs and
AMPs. Because price substitutions for these HCPCS codes may be warranted, we also
identified which of these HCPCS codes met the threshold in two consecutive or three of
four quarters.

Limitations
We did not verify the accuracy of manufacturer-reported ASP and AMP data, nor did we
verify the underlying methodology used by manufacturers to calculate ASPs and AMPs.
Furthermore, we did not verify the accuracy of CMS’s crosswalk files or examine NDCs
that CMS opted to exclude from its calculation of Part B drug reimbursement amounts.

Manufacturers are required to submit their quarterly ASP and AMP data to CMS 30 days
after the close of the quarter. Our analyses were performed on ASP and AMP data


35
  76 Fed. Reg. 73026, 73289 (Nov. 28, 2011).
36
  Although an NDC’s ASP is not usually the same as its AMP, ASPs were within 3 percent of the AMPs at
the median during the last three quarters of 2011 and the first quarter of 2012. Therefore, we believe that
ASP acts as a reasonable proxy for AMP, ensuring that the NDC is represented in both the volume-
weighted ASP and the volume-weighted AMP for the HCPCS code.


Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 10 – Marilyn Tavenner


compiled by CMS soon after that deadline. We generally did not determine whether
manufacturers provided additional or revised pricing data to CMS at a later date.

Standards
This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation approved by the Council of the Inspectors General on Integrity and
Efficiency.

RESULTS

Of the 385 Drug Codes With Complete AMP Data, Volume-Weighted ASPs for
22 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
As mandated by the Act, OIG compared ASPs to AMPs to identify instances in which the
ASP for a particular drug exceeded the AMP by a threshold of 5 percent. In the first
quarter of 2012, 22 of the 385 HCPCS codes with complete AMP data (6 percent)
exceeded this 5-percent threshold. Table 2 describes the extent to which ASPs exceeded
AMPs for the 22 HCPCS codes. For half of the codes, the volume-weighted ASP
exceeded the volume-weighted AMP by more than 20 percent. A list of all 22 HCPCS
codes, including their descriptions and HCPCS dosage amounts, is presented in
Appendix C.

                 Table 2: Extent to Which ASPs Exceeded AMPs for
                    22 HCPCS Codes With Complete AMP Data
                     Percentage                                  Num ber of Codes

                     5.00–9.99%                                                      8
                     10.00–19.99%                                                    3
                     20.00–29.99%                                                    5
                     30.00–39.99%                                                    2
                     40.00–49.99%                                                    1
                     50.00–59.99%                                                    1
                     60.00–69.99%                                                    0
                     70.00–79.99%                                                    0
                     80.00–89.99%                                                    0
                     90.00–99.99%                                                    0
                     100% and above                                                  2
                        Total                                                       22
                    Source: OIG analy sis of f irst-quarter 2012 ASP and AMP data, 2012.


Pursuant to section 1847A(d)(3) of the Act, the Secretary may disregard the ASP for a
drug that exceeds the 5-percent threshold and shall substitute the payment amount with
the lesser of either the widely available market price or 103 percent of the AMP. If
reimbursement amounts for all 22 codes with complete AMP data had been based on



Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 11 – Marilyn Tavenner


103 percent of the AMPs during the third quarter of 2012, Medicare expenditures would
have been reduced by an estimated $739,000. 37

If CMS’s price substitution policy had been in effect, reimbursement amounts for 15 of
the 22 HCPCS codes would have been reduced. These 15 HCPCS codes had complete
AMP data, exceeded the 5-percent threshold in either two consecutive quarters or three of
four quarters, and were not identified by FDA as being in short supply as of September
2012 (see Table 3). 38 If reimbursement amounts for the 15 codes had been based on
103 percent of the AMPs during the third quarter of 2012, Medicare expenditures would
have been reduced by an estimated $606,000.

     Table 3: Fifteen HCPCS Codes With Complete AMP Data in the First Quarter
          of 2012 That Would Have Met CMS’s Criteria for Price Substitution
                                           Previous Com parisons of ASPs and AMPs

                                            First           Fourth            Third          Second
                     HCPCS                Quarter          Quarter          Quarter          Quarter
                     Code                    2012             2011             2011             2011
                     J0500                      X                X                X
                     J0610                        X                 X
                     J0670                        X                 X
                     J1205                        X                 X                X                X
                     J1742                        X                 X                X
                     J1756                        X                 X
                     J1955                        X                 X
                     J2501                        X                 X                X                X
                     J2675                        X                 X                X
                     J2780                        X                 X                X                X
                     J9045                        X                 X                X
                     J9065                        X                 X                                 X
                     J9211                        X                 X                X
                     J9214                        X                 X                X                X
                     Q0166                        X                                  X                X
                    Source: OIG analy sis of ASP and AMP data f rom the second through f ourth quarters of
                    2011 and the f irst quarter of 2012.




37
   All savings estimates in this report assume that the number of services allowed by Medicare in 2011
remained consistent from one quarter to the next and that there were no significant changes in utilization
between 2011 and 2012.
38
   Two additional HCPCS codes had complete AMP data and exceeded the 5-percent threshold in two
consecutive or three of four quarters; however, the drugs represented by these HCPCS codes were
identified by FDA as being in short supply at the time of our analysis.


Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 12 – Marilyn Tavenner


Of the 64 Drug Codes With Partial AMP Data, Volume-Weighted ASPs for
6 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
In addition to examining HCPCS codes with complete AMP data, we examined
64 HCPCS codes for which only partial AMP data were available. ASPs for 6 of these
64 HCPCS codes (9 percent) exceeded the AMPs by at least 5 percent in the first quarter
of 2012. A list of the six HCPCS codes, including their descriptions and HCPCS dosage
amounts, is presented in Appendix D.

For one-third of the HCPCS codes, missing AMPs likely had little influence on the
outcome of the pricing comparisons. Two of the six HCPCS codes with partial AMP
data continued to exceed the threshold when we accounted for missing AMPs, suggesting
that the pricing comparisons for these codes were accurately capturing underlying market
trends even though AMP data were not available for the full set of NDCs. Because
missing AMPs likely had little influence on the pricing comparison results for these two
HCPCS codes, price substitutions may be legitimately warranted in these cases. Both of
these codes exceeded the 5-percent threshold in either two consecutive or three of four
quarters.

For the remaining four of six HCPCS codes, ASPs no longer exceeded the AMPs by at
least 5 percent in the first quarter of 2012, suggesting that these codes initially exceeded
the threshold because of missing AMPs rather than a genuine pricing disparity between
the ASPs and AMPs.

Pricing Comparisons Could Not Be Performed on 52 Drug Codes Because No AMP
Data Were Available
For 52 HCPCS codes, OIG could not compare ASPs and AMPs because there were no
AMP data for any of the 208 NDCs that CMS used when calculating drug reimbursement
amounts for these codes. In 2011, Medicare allowances for these 52 codes totaled
$338 million. 39

Manufacturers for 9 percent of the NDCs without AMP data (19 of 208) participated in
the Medicaid drug rebate program as of the first quarter of 2011 and were therefore
generally required to submit AMP data for their covered outpatient drugs. 40, 41, 42



39
   Of the 52 HCPCS codes with no associated AMP data, three were not listed in the 2011 PBAR file. As a
result, these codes were not included in the total Medicare allowances for the year.
40
   To determine whether a manufacturer participated in the Medicaid drug rebate program, we consulted
CMS’s labeler contact file for the first quarter of 2012, which was obtained from CMS on October 2, 2012.
41
   Although manufacturers with rebate agreements are required to submit AMP data for their covered
outpatient drugs, there may be valid reasons why an AMP was not provided for a specific NDC in a given
quarter. For example, a manufacturer may not have been required to submit an AMP if the drug product
had been terminated and there was no drug utilization during the quarter.
42
   These 19 NDCs were crosswalked to 13 HCPCS codes.


Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 13 – Marilyn Tavenner


Manufacturers for the remaining 189 of 208 NDCs did not participate in the Medicaid
drug rebate program and therefore were not required to submit AMP data.

CONCLUSION

When Congress established ASP as the basis for Medicare Part B drug reimbursement, it
also provided a mechanism for monitoring market prices and limiting potentially
excessive payment amounts based on ASPs. Specifically, the ASP statute mandates that
OIG monitor ASPs by comparing them with AMPs and widely available market prices,
and directs CMS to lower reimbursement for certain drugs based on OIG’s findings.
Since the ASP payment methodology took effect in January 2005, OIG has fulfilled its
responsibility to monitor ASP-based payment amounts by issuing 26 comparisons
between ASPs and AMPs, each of which identified Part B drugs that would have been
eligible for price reductions under the law. However, CMS has yet to lower
reimbursement in response to OIG’s findings and recommendations.

In this current report, we identified 28 HCPCS codes that exceeded the threshold for
price adjustment in the first quarter of 2012. Of these, 22 had complete AMP data (i.e.,
AMP data for every drug product that CMS used to establish reimbursement amounts). If
reimbursement amounts for all 22 codes had been based on 103 percent of the AMPs in
the third quarter of 2012, Medicare would have saved an estimated $739,000 in that
quarter alone. Under CMS’s price substitution policy, reimbursement amounts for 15 of
the 22 HCPCS codes would have been lowered to 103 percent of the AMP, thereby
saving Medicare and its beneficiaries $606,000. The remaining 6 of 28 HCPCS codes
also exceeded the threshold for price adjustment in the first quarter of 2012 but did so
based on partial AMP data. Although CMS’s price substitution policy will not apply to
codes with partial AMP data, price reductions may be legitimately warranted for two of
the six codes because missing AMPs likely had little influence on the pricing comparison
results. We could not compare ASPs and AMPs for 52 HCPCS codes because AMP data
were not submitted for any of the NDCs that CMS used to calculate reimbursement.
Manufacturers for 9 percent of these NDCs had Medicaid drug rebate agreements and
were therefore generally required to submit AMPs.

Although we do not make recommendations in this report, some of OIG’s previous
pricing comparisons have contained recommendations, which we continue to support. 43
In response to OIG’s most recent report with recommendations, CMS expressed
uncertainty about the payoff associated with quarterly pricing comparisons, stating that

43
   For example, OIG, Comparison of Average Sales Prices and Average Manufacturer Prices: An
Overview of 2007, OEI-03-08-00450, December 2008; OIG, Comparison of Average Sales Prices and
Average Manufacturer Prices: An Overview of 2008, OEI-03-09-00350, February 2010; OIG, Comparison
of Average Sales Prices and Average Manufacturer Prices: An Overview of 2009, OEI-03-10-00380, April
2011; and OIG, Comparison of Average Sales Prices and Average Manufacturer Prices: An Overview of
2010, OEI-03-11-00410, November 2011. These reports are available online at https://www.oig.hhs.gov.


Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 14 – Marilyn Tavenner


the price substitution policy will generate minor savings for the program. Although we
acknowledge that the savings from any single OIG report may be modest relative to total
expenditures for Part B drugs, significant savings would have accrued had CMS taken
action immediately after OIG issued its first pricing comparison. In the long term,
savings achieved through price substitution could reduce waste and conserve taxpayer
funds at a time when increased focus has been placed on rising health care costs and
fiscal responsibility.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-03-12-00730 in all correspondence.




Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 15 – Marilyn Tavenner


APPENDIX A

The Equation Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices on or After April 1, 2008


A volume-weighted average sales price (ASP) is calculated for the dosage amount
associated with the Healthcare Common Procedure Coding System (HCPCS) code. In the
following equation, the “number of billing units” represents the number of HCPCS code
doses that are contained in a national drug code (NDC).



      Volume-Weighted ASP             Sum of (ASP for NDC * Numb er of NDCs Sold)
       for Dosage Amount  =
         of HCPCS Code         Sum of (Numb er of NDCs Sold * Numb er of Billing Units in NDC)




Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 16 – Marilyn Tavenner


APPENDIX B

Detailed Methodology for Converting and Volume-Weighting Average
Manufacturer Prices for the First Quarter of 2012

Healthcare Common Procedure Coding System codes with complete average
manufacturer price data. Of the 514 Healthcare Common Procedure Coding System
(HCPCS) codes with reimbursement amounts based on average sales prices (ASP),
397 had average manufacturer prices (AMP) for every national drug code (NDC) that the
Centers for Medicare & Medicaid Services (CMS) used to calculate volume-weighted
ASPs. These 397 HCPCS codes represented 1,969 NDCs. For 19 NDCs, we could not
successfully identify the amount of the drug reflected by the ASP and therefore could not
calculate a converted AMP. These 19 NDCs were crosswalked to 12 HCPCS codes. We
did not include these 12 HCPCS codes (256 NDCs) in our final analysis.

Using the converted AMPs for the remaining 1,713 NDCs, we calculated a volume-
weighted AMP for each of the remaining 385 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.

HCPCS codes with partial AMP data. There were 65 HCPCS codes with AMP data for
only some of the NDCs that CMS used in its calculation of volume-weighted ASPs.
These 65 HCPCS codes represented a total of 1,020 NDCs. AMP data were either
missing or unavailable for 285 of these NDCs, which were then excluded from our
calculation of volume-weighted AMPs. 44

We calculated converted AMPs for each of the remaining 735 NDCs. For 7 of the
735 NDCs, we could not identify the amount of the drug reflected by the ASP and
therefore could not calculate a converted AMP. We removed these 7 NDCs from our
analysis. 45 As a result, one HCPCS code no longer had any NDCs with AMP data.
Therefore, this HCPCS code was removed from our analysis.

Using the converted AMPs for the remaining 728 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 64 HCPCS codes consistent with
CMS’s methodology for calculating volume-weighted ASPs.




44
   Although AMP data for these 285 NDCs were excluded from our calculation of volume-weighted AMPs,
the corresponding ASPs were not excluded from the volume-weighted ASPs as determined by CMS.
Volume-weighted ASPs remained the same, regardless of the availability of AMP data.
45
   Although we removed NDCs with problematic AMP conversions, we did not remove the corresponding
HCPCS codes, provided that other NDCs for those drug codes had usable AMP data. This differs from our
analysis of HCPCS codes with complete AMP data, in which we removed not only the NDCs with
problematic AMP conversions, but also the corresponding HCPCS codes.


Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 17 – Marilyn Tavenner


HCPCS codes with no AMP data. For 52 HCPCS codes, there were no AMP data for
any of the NDCs that CMS used in its calculation of volume-weighted ASPs. These
52 HCPCS codes represented 208 NDCs.




Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 18 – Marilyn Tavenner


APPENDIX C

Twenty-Two Drug Codes With Complete Average Manufacturer Price Data That
Exceeded the 5-Percent Threshold in the First Quarter of 2012

      Drug
      Code                                                               Short Description                Drug Code Dosage
      J0500                                                            Dicyclomine injection                               20 mg

      J0595                                                   Butorphanol tartrate injection                                 1 mg

      J0610                                                    Calcium gluconate injection                                 10 mL

      J0636                                                                Calcitriol injection                          0.1 mcg
      J0670                                                      Mepivacaine HCl injection                                 10 mL

      J1205                                                Chlorothiazide sodium injection                                500 mg

      J1270                                                        Doxercalciferol injection                               1 mcg

      J1742                                                      Ibutilide fumarate injection                                1 mg

      J1756                                                           Iron sucrose injection                                 1 mg
      J1955                                                          Levocarnitine injection                                   1g

      J2501                                                             Paricalcitol injection                             1 mcg

      J2675                                                          Progesterone injection                                50 mg

      J2780                                                         Ranitidine HCl injection                               25 mg

      J7500                                                                Azathioprine, oral                              50 mg
      J9045                                                             Carboplatin injection                              50 mg

      J9065                                                              Cladribine injection                                1 mg

      J9208                                                              Ifosfamide injection                                  1g

      J9211                                                          Idarubicin HCl injection                                5 mg

      J9214                                                      Interferon alfa-2b injection                     1 million units
      J9280                                                              Mitomycin injection                                 5 mg

      J9360                                                     Vinblastine sulfate injection                                1 mg

      Q0166                                                            Granisetron HCl, oral                                 1 mg
     g=gram, mcg=microgram, mg=milligram, mL=milliliter.
     Source: Of f ice of Inspector General analy sis of f irst-quarter 2012 av erage sales price and av erage manuf acturer price data, 2012.




Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
Page 19 – Marilyn Tavenner


APPENDIX D

Six Drug Codes With Partial Average Manufacturer Price Data That Exceeded the
5-Percent Threshold in the First Quarter of 2012


           Drug
           Code                                                            Short Description               Drug Code Dosage
           90586                                            Bcg vaccine, for intravesical use                              1 each

           J0171                                              Adrenalin epinephrine injection                               0.1 mg

           J1650*                                                Enoxaparin sodium injection                                10 mg

           J2700                                                     Oxacillin sodium injection                            250 mg

           J9031                                                 Bcg live intravesical vaccine                             1 each

           Q0163*                                             Diphenhydramine HCl injection                                 50 mg
         mg=milligram.
         *These drug codes continued to exceed the 5-percent threshold af ter the Of f ice of Inspector General (OIG) accounted f or
         missing av erage manuf acturer prices (AMP).
         Source: OIG analy sis of f irst-quarter 2012 av erage sales price and AMPs, 2012.




Comparison of First-Quarter 2012 ASPs and AMPs (OEI-03-12-00730)
